 OFFICE OF INSPECTOR GENERAL
   for the Millennium Challenge Corporation


 AGREED UPON PROCEDURES
 PERFORMED ON THE MILLENNIUM
 CHALLENGE CORPORATION’S
 RETIREMENT, HEALTH BENEFITS,
 AND LIFE INSURANCE
 WITHHOLDINGS/CONTRIBUTIONS AND
 THE SUPPLEMENTAL SEMIANNUAL
 HEADCOUNT REPORT SUBMITTED TO
 THE OFFICE OF PERSONNEL
 MANAGEMENT FOR THE PERIOD
 ENDING JUNE 10, 2006

AUDIT REPORT NO. M-000-07-002-F
January 5, 2007
  Office of Inspector General
     for the
  Millennium Challenge Corporation

                                                                                January 5, 2007

MEMORANDUM

TO:                  Michael Ryan, Vice President for Administration and Finance and Chief Financial
                     Officer

FROM:                John M. Phee, AIG/MCC /s/

SUBJECT:             Agreed Upon Procedures Performed On the Millennium Challenge Corporation’s
                     Retirement, Health Benefits, and Life Insurance Withholdings/Contributions and the
                     Supplemental Semiannual Headcount Report submitted to the Office of Personnel
                     Management for the period ended June 10, 2006. (Report No. M-000-07-002-F )

Enclosed is the final report on the subject review. The Office of Inspector General (OIG)
contracted with the independent certified public accounting firm of Williams, Adley and Company,
LLP (WA & Co.) to perform Agreed Upon Procedures of the Millennium Challenge Corporation’s
(MCC) Retirement, Health Benefits, and Life Insurance Withholdings/Contributions and the
Supplemental Semiannual Headcount Report submitted by MCC to OPM for the period ended June
10, 2006. The contract required that the review be performed in accordance with generally accepted
auditing standards; generally accepted government auditing standards; and Office of Management
and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal Financial Statements as
amended by M-04-22 on July 27, 2004.

In its report on the Agreed Upon Procedures performed of Retirement, Health Benefits, and Life
Insurance Withholdings/Contributions and the Supplemental Semiannual Headcount Report
submitted to OPM at the Millennium Challenge Corporation (MCC) for the period ended June 10,
2006, the WA & Co. auditors found that the information appeared reasonable based on the samples
selected and the Agreed Upon Procedures performed.

The procedures that were conducted by the auditors are included as APPENDIX A to this report.
Based upon the samples reviewed by the auditors and the Agreed Upon Procedures performed of
the Retirement, Health Benefits, and Life Insurance Withholdings/Contributions as well as
enrollment information submitted via the Semiannual Headcount Report appeared reasonable.
Therefore, the report contains no findings or recommendations.



U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
                                              2


In carrying out its oversight responsibilities, the OIG reviewed WA & Co.’s report and related
review documentation. This review, as differentiated from an audit in accordance with U.S.
generally accepted government auditing standards, was not intended to enable the OIG to
express, and we do not express, opinions on MCC’s Retirement, Health Benefits, and Life
Insurance Withholdings/Contributions and the Supplemental Semiannual Headcount Report
submitted to OPM. WA & Co. is responsible for the attached auditors’ report, dated August 28,
2006, and the conclusions expressed in the report. However, our review did not disclose any
instances where WA & Co. did not comply with the generally accepted government auditing
standards.

In finalizing the report, we considered your comments on our discussion draft and included
those comments, in their entirety in Appendix I of this report. MCC officials expressed their
appreciation for the work performed which provided some assurance that the payroll personnel
data in its system was reasonably accurate.

The OIG appreciates the cooperation and courtesies extended to our staff and to the staff of WA
& Co. during the audit.
                                 Table of Contents


Independent Accountant’s Report………………………………………………..……………..1

Background………………………………………………………………………………….….2

Objective………………………………………………………………………….…………….2

Scope………………………………………………………………………………….………..2

Criteria……………………………………………………………………………….…………3

Methodology…………………………………………………………………………….……...3

Agreed Upon Procedures (Appendix A in report)……….………………………….………….4

The Office of Inspector General’s Evaluation of MCC Management Comments…..……….. 11

Appendix I - Management Comments……………………………………………….………..12
                          INDEPENDENT ACCOUNTANTS’ REPORT
                    ON THE APPLICATION OF AGREED-UPON PROCEDURES


United States Agency for International Development
Office of Inspector General
Assistant Inspector General for the Millennium Challenge Corporation

We have performed the procedures described in the attachment, which were agreed to by the
Inspector General, Controller, and the Vice President for Administration and Finance, solely to
assist with respect to the employee withholdings and employer contributions reported on the
Report of Withholdings and Contributions for Health Benefits, Life Insurance, and Retirement
for the payroll periods ended October 15, 2005, March 4, 2006 and June 10, 2006 and the Semi-
Annual Headcount Report as of March 4, 2006.             This engagement to apply agreed-upon
procedures was performed in accordance with the standards established by the American
Institute of Certified Public Accountants and U.S. Government Auditing Standards issued by the
Comptroller General of the United States. The sufficiency of the procedures is solely the
responsibility of the Inspector General, Controller, and the Vice President for Administration and
Finance. Consequently, we make no representation regarding the sufficiency of the procedures
described below either for the purpose for which this report has been requested or for any other
purpose. The procedures are included as an attachment to this report. Our agreed upon
procedures did not disclose any findings and therefore, no recommendations are included herein
and therefore, no formal management response is required.

We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the withholdings and contributions for Health Benefits, Life
Insurance, and Retirement, and the Headcount Report of the Millennium Challenge Corporation.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intended solely for the use of the Inspector General, Controller, and the Acting
Vice President for Administration and Finance and should not be used by those who have not
agreed to the procedures and taken responsibility for the sufficiency of the procedures for their
purposes.




August 28, 2006
Washington, DC




1250 H Street, N.W., Suite 1150...Washington, DC 20005…(202)371-1397…Fax (202)371-9161


                                                                                                1
Background

In March 2002 in Monterrey, Mexico, President Bush called for a “new compact for global
development,” which links greater contributions from developed nations to greater responsibility
from developing nations. The President proposed a concrete mechanism to implement this
compact—the Millennium Challenge Account (MCA)—through which development assistance
would be provided to those countries that rule justly, invest in their people, and encourage
economic freedom. On January 23, 2004, with the passage of Public Law 108-199 (The
Consolidated Appropriations Act of 2004) the Millennium Challenge Corporation (MCC) was
established. The Act provided $1 billion in initial funding for fiscal year 2004, and President
Bush has pledged to increase funding for the MCA to $5 billion a year in the future.

The MCC contracted with the Department of Interior, National Business Center (NBC) to
provide accounting and Information Technology services including usage of its Oracle Federal
Financials System application. The Department of Interior also handles MCC’s Human
Resources and Payroll services to the Corporation.

The OIG reported in a management letter that accompanied the FY 2004 Financial Statements
that the MCC’s process for personnel and payroll was inefficient and provides opportunities for
errors. We noted during our testing of personnel documentation that NBC made errors in payroll
processing primarily because the appropriate forms on transferring employees were not provided.
These errors were corrected during the year but the process was not corrected to reduce future
errors. As a result of these concerns the MCC requested that we conduct a review of its
personnel documentation. After listening to the MCC official’s concerns we agreed that a
review that embodied the Agreed-Upon Procedures issued by the Office of Personnel
Management (OPM) for larger agencies would be appropriate.

Objective

The objective of this task is to assess the reasonableness of Retirement, Health Benefits, and Life
Insurance withholdings and/contributions as well as enrollment information submitted via the
Semiannual Headcount Report. The work was coordinated with USAID OIG auditors within the
Assistant Inspector General for the Millennium Challenge Corporation (AIG/MCC). Where it is
determined that the information is not reasonable, the deficiency and the control weakness(es)
that gave rise to the deficiency, as well as, the extent of the deficiency shall be reported.

Scope

In general, the scope of these Agreed-Upon Procedures (AUPs) relates to the submission to OPM
of withholdings/contributions for Retirement, Health Benefits, and Life Insurance related to the
use of the Retirement and Insurance Transfer System (RITS). RITS is the authorized method of




1250 H Street, N.W., Suite 1150...Washington, DC 20005…(202)371-1397…Fax (202)371-9161




                                                                                                 2
submission of withholding and contribution information to OPM. Agency payroll offices
(APOs) that are technically unable to transmit benefit information to OPM via RITS may
continue to submit withholdings and contributions via the hard copy SF 2812 (and SF 2812-A),
“Report of Withholdings and Contributions for Health Benefits, Life Insurance and Retirement
to OPM.” The AUPs to be applied to those APOs submitting withholdings and contributions to
OPM via the hard copy SF 2812 forms are similar to those for RITS.

Criteria

Our examination was based on the requirements of Office of Personnel Management for Agency
Payroll Offices.    In addition, we relied upon the laws and regulations related to
withholdings/contributions for retirement, health benefits, and life insurance.

Methodology

We visited the headquarters office of MCC and the payroll offices of NBC between July 25 and
August 28, 2006 to gather information and conduct our examination or official personnel files,
RITS reports and the Semi-Annual Headcount report. During our site visits and testing
activities, we:

    •    Tested MCC personnel based upon the sampling outlined in the agreed upon procedures,
         All personnel fitting this category were tested;

    •    Interviewed human resources and payroll personnel and reviewed policies and procedures
         to identify any material weaknesses and their causes; and

    •    Reviewed official personnel files, performed recalculations, and verified withholdings
         and contributions with the general ledger and official OPM reports.

We conducted our work in accordance with GAGAS (2003 revision, issued by the U.S.
Government Accountability Office), executed tests, conducted interviews, made observations
and performed examinations in accordance with the AUPs outlined in Appendix A.




1250 H Street, N.W., Suite 1150...Washington, DC 20005…(202)371-1397…Fax (202)371-9161




                                                                                             3
                                                                                         APPENDIX A


                                       AGREED UPON PROCEDURES

Gain an understanding of the APO’s procedures for reconciling payroll information to RITS
submissions. Obtain the APO’s most recent Semiannual Headcount Report submitted to OPM
and a summary of RITS submissions for the current fiscal year. Randomly select three RITS
submissions for the current fiscal year, one of which coincides with the most recent Semiannual
Headcount Report. Obtain payroll information for the periods covered by the RITS submissions
selected.

1.     Compare RITS submission data with payroll information by performing the following
       procedures:

      1. a.       Foot the payroll information. If the auditor chooses to use a subset of payroll
                  information, the subset must be representative of all payroll information and be
                  subject to the same control procedures over payroll information associated with
                  the three RITS submissions selected.

      1.b.        Trace employee withholding information shown on the payroll information footed
                  in step l.a. for Retirement, Health Benefits, and Life Insurance (as adjusted for
                  reconciling items) to the related amounts shown on the RITS submission for the
                  corresponding period.

      1.c.        Obtain support for differences between amounts shown on the source of payroll
                  information (e.g., payroll register, payroll data, etc.) or derived from files footed in
                  step l.a. and amounts shown on the RITS submission selected.

      1. d.       Trace reconciling items to supporting documentation and verify agreement.

      1. e.       Foot each RITS submission selected.

      Report any differences or exceptions that are unsupported or unsubstantiated, or represent
      an error.




1250 H Street, N.W., Suite 1150...Washington, DC 20005…(202)371-1397…Fax (202)371-9161




                                                                                                        4
2.    Review or perform a reconciliation of payroll information, including RITS data, to the
      agency’s general ledger. For the three pay periods selected, review the agency’s
      reconciliation of payroll transactions to its general ledger expense and cash disbursement
      accounts or, if such reconciliation does not exist, perform the reconciliation. Agencies
      should post Retirement, Health Benefits, and Life Insurance employer contributions to
      Standard General Ledger (SGL) account 6400—Benefits Expense. Report when the APO
      did not prepare the reconciliation. Also report any unsupported or unsubstantiated
      differences (i.e., gross rather than net) in the total payroll paid for the selected pay period
      and the amount recorded in the general ledger that exceeds 5 percent of total payroll.
      Report any differences (i.e., gross rather than net) between the withholding and
      contributions reported on the RITS submissions and the amounts posted to the SGL
      accounts greater than 1 percent. Employee contributions should be reported to 6400N and
      employer contributions to 6400G. Report postings of employer contributions for
      Retirement, Health Benefits, and Life Insurance to any SGL account other than account
      6400G.

3.     Agree employee salary and contributions to the SF 50 (“Notification of Personnel Action”),
       authorized withholding/contributions, and benefit program elections. Randomly select a
       total of 25 individuals who were on the payroll system for all three of the RITS
       submissions selected for testing above. The 25 employees must be selected from a pool of
       employees who meet each of the following characteristics: covered by Civil Service
       Retirement System (CSRS) or the Federal Employees Retirement System (FERS); enrolled
       in the Federal Employees Health Benefits Program; covered by Basic Life Insurance; and
       covered by at least one FEGLI optional coverage (Option A, B, or C). Obtain the Official
       Personnel File (OPF) for each individual selected, and perform the following procedures:

       3. a.       Verify that the base salary used for payroll purposes and upon which withholdings
                   and contributions generally are based agrees with the base salary reflected on the
                   employees’ SF 50s.

       3. b.       For Retirement, verify that amounts withheld and contributed for participants in
                   the CSRS and the FERS are correct, based upon the official withholdings and
                   contribution rates required by law. [See Payroll Office Letters P-98-13 and P-99-
                   27.]

       3. c.       For Health Benefits, verify that employee withholdings and agency contributions
                   agree with the official subscription rates issued by OPM for the plan and option
                   elected by the employees, as documented by a Health Benefits Registration Form
                   (SF 2809) in the employees’ OPFs. [See Payroll Office Letters P-98-10 and P-
                   99-24 for FY 2000 rates.]




1250 H Street, N.W., Suite 1150...Washington, DC 20005…(202)371-1397…Fax (202)371-9161




                                                                                                        5
                   If an employee elected his/her current health plan via Employee Express, there
                   likely will not be documentation in the OPF. Employee Express is an automated
                   system that allows employees to process health benefits enrollment changes,
                   without having to submit a hard-copy enrollment form (SF 2809); further
                   information may be obtained at www.EmployeeExpress.gov. In addition, some
                   agency payroll systems also afford the ability to effect health benefits enrollment
                   changes without use of SF 2809. The auditor must obtain documentation from
                   Employee Express, which maintains a history of all FEHB transactions entered by
                   employees, or from the payroll systems that afford the capability of end-user
                   update. Rather than requesting documentation directly from Employee Express,
                   auditors should work through each agency’s personnel office. Employee Express
                   key representatives have been apprised of this potential requirement.

       3.d.        For Life Insurance, verify that Basic Life Insurance was elected by the employees,
                   as documented by a Life Insurance Election Form (SF 2817), in his/her OPF and
                   that withholdings and contributions are correct.

                   i    For employee withholdings: Round the employee’s annual base salary to the
                        nearest thousand dollars and add $2,000.
                   ii   For agency contributions: Divide the employee withholdings derived in step
                        3.d.i. by two.

       3.e.        Also, for Life Insurance, verify Optional coverage was elected, as documented by
                   an SF 2817 in the employees’ OPFs, and that withholdings are correct. The
                   withholding rates for Options A, B, and C are based upon the age of the employee
                   and the amount of coverage elected. [See the April 1999 revised “FEGLI
                   Program Booklet” RI 76-21 available at www.opm.gov/insure/life/index.htm.]
                   Report any differences or exceptions that are unsupported or unsubstantiated, or
                   represent an error.

                  Note: For step 3. e. only, randomly select additional individuals as necessary so
                  that 10 individuals are selected for each Life Insurance option (i.e., Options A, B,
                  and C).

4.    Randomly select a total of 10 employees, who have no Health Benefits withholdings, from
      the payroll information corresponding to the three RITS submissions selected for testing
      above. Verify from a review of the OPF that the employees did not elect Health Benefits
      coverage - this may be proven by the absence of an election form SF 2809 in the OPF, if




1250 H Street, N.W., Suite 1150...Washington, DC 20005…(202)371-1397…Fax (202)371-9161




                                                                                                         6
      the employee never elected coverage. Alternatively, for an employee who canceled
      enrollment after having been enrolled in the Health Benefits program, look for an SF 2809
      with Section E checked, indicating election of coverage cancellation. Report any exceptions
      that are unsupported or unsubstantiated, or represent an error.

      To conclude with finality that there was no election of Health Benefits, the auditor must
      first confirm with Employee Express, via the agency’s personnel office, that no election
      was made or coverage canceled by this means.

5.    Randomly select a total of 10 employees who have no Life Insurance withholdings from the
      payroll information corresponding to the three RITS submissions selected for testing above.
      Verify that the employees either waived or canceled Life Insurance coverage. This will be
      proven by the presence in the OPF of an SF 2817, by which an employee waives or cancels
      Basic Life Insurance coverage. Report any exceptions.

6.    Calculate the headcount reflected on the Semiannual Headcount Report selected for testing
      above, as follows.

       6.a.        Obtain existing payroll information supporting the selected Supplemental
                   Semiannual Headcount Report. If existing payroll data is not available, have a
                   payroll system query performed that summarizes detailed payroll data supporting
                   the Supplemental Semiannual Headcount Report, as follows:

                           •         Benefit Category [see Semiannual Headcount Report].
                           •         Dollar Amount of withholdings and contributions.
                           •         Number Enrolled (deductions made/no deductions).
                           •         Central Personnel Data File Code.
                           •         Aggregate Base Salary.

                  It may be that the payroll information needed to recalculate the selected
                  Headcount Report is no longer available on the payroll system. If such is the case,
                  query the payroll information currently residing on the payroll system and
                  compare it to the selected Headcount Report. Account for any significant
                  personnel changes that may affect withholdings, contributions, and numbers of
                  employees enrolled.




1250 H Street, N.W., Suite 1150...Washington, DC 20005…(202)371-1397…Fax (202)371-9161




                                                                                                    7
      6.b.        Recalculate the Headcount reflected on the Semiannual Headcount Report. A
                  suggested method of recalculating the Headcount is as follows: (1) estimate the
                  number of employees per payroll register page by counting the employees listed
                  on several pages, (2) count the number of pages in the payroll register, and (3)
                  multiply the number of employees per page by the number of pages, or count
                  (using a computer audit routine) the number of employees on the payroll data file
                  for the period.

      6.c.        Compare the results of payroll information from step 6.a with the calculated
                  Headcount from step 6.b to the information shown on the Semiannual Headcount
                  Report.

      6.d.        Report any differences (i.e., gross rather than net) greater than 2 percent between
                  the Headcount reporting on the agency’s Semiannual Headcount Report and
                  payroll information from step 6.a and the calculated Headcount from step 6.b.

7.    Calculate employer and employee contributions for Retirement, Health Benefits, and Life
      Insurance.

      7. a.       Calculate Retirement withholdings and contributions for the three pay periods
                  selected, as follows:

                   i       Multiply the CSRS and FERS payroll base by the withholding and
                           employer contribution rates required by law.

                  ii       Compare the calculated totals with related amounts shown on the RITS
                           submissions. Report any variances (i.e., gross rather than net) between the
                           calculated amounts and the amounts reported on the RITS submissions
                           greater than 5 percent.

       7. b.      Calculate employee withholdings and employer contributions for Health Benefits
                  for the three pay periods selected, as follows:

                  i        Multiply the number of employees enrolled in each Health Benefit plan and
                           plan option by the employee withholdings and employer contributions for
                           the plan and option.
                  ii       Sum the totals in step 7.b.i. and compare the result with the Health Benefit
                           withholding and contribution amounts shown on the RITS submissions.
                           Report any variances (i.e., gross rather than net) between the calculated
                           amounts and the amounts reported on the RITS submissions greater than 5
                           percent.


1250 H Street, N.W., Suite 1150...Washington, DC 20005…(202)371-1397…Fax (202)371-9161



                                                                                                          8
                  ii       Sum the totals in step 7.b.i. and compare the result with the Health Benefit
                           withholding and contribution amounts shown on the RITS submissions.
                           Report any variances (i.e., gross rather than net) between the calculated
                           amounts and the amounts reported on the RITS submissions greater than 5
                           percent.

      7. c.       Calculate the Basic Life Insurance employee withholdings and employer
                  contributions for the three pay periods selected as follows:

                  i        Have APO personnel perform a payroll system query to determine the total
                           number of employees with Basic Life Insurance Program coverage and the
                           aggregate annual basic pay for all employees with Basic Life Insurance
                           Program coverage. [See the CSRS/FERS Handbook, Section 30A1.1-2 for
                           definition of basic pay.]

                  ii       For employee withholdings: Add the product of 2,000 times the number of
                           employees with Basic Life Insurance coverage to the aggregate annual
                           basic pay for all employees selected. This represents the estimated total
                           Basic Life Insurance coverage.

                  iii      Compare the result in step 7.c.ii. to the withholdings for Basic Life
                           Insurance coverage reported on the RITS submission. Report any
                           difference (i.e., gross rather than net) between the estimate and the amount
                           of withholdings reported on the RITS submission greater than 5 percent.

                  iv       For agency contributions: Divide the results of step 7.c.ii. by two -- this
                           approximates agency contributions, which are one-half of employee
                           withholdings. Compare this result to the amount reported on the RITS
                           submission, and report any differences (i.e., gross rather than net) between
                           the estimate and the amount reported on the RITS submission greater than
                           5 percent.

      7. d.       Calculate the Option A and Option C Life Insurance coverage withholdings for the
                  three pay periods selected by using the results of payroll system queries from step
                  6.a or have the APO personnel perform a payroll system query that summarizes
                  the number of employees, by age group, who elected Options A and C during the
                  pay periods selected.

                  i        Multiply the number of employees in each age group by the appropriate
                           rate for Option A or Option C, in accordance with the rates for age groups
                           provided in the FEGLI Program Booklet for pay periods beginning on or


1250 H Street, N.W., Suite 1150...Washington, DC 20005…(202)371-1397…Fax (202)371-9161




                                                                                                          9
                           after 4/24/99. Report any differences (i.e., gross rather than net) greater
                           than 2 percent for Option A and/or Option C.

                  ii       Contributions for Option B cannot be tested for reasonableness by these
                           methods because of the number of variables involved in electing this
                           option.




1250 H Street, N.W., Suite 1150...Washington, DC 20005…(202)371-1397…Fax (202)371-9161




                                                                                                         10
The Office of Inspector General’s Evaluation of MCC Management Comments

MCC Management agreed with the findings in the audit report. We have reviewed
management’s specific comments and concluded that the comments are responsive to the
contents of the audit report. We have included the management comments in their entirety in
Appendix I




                                                                                              11
APPENDIX I




        12
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
